Semiannual Report To Congress
        October 1, 2012 - March 31, 2013

    Fiscal Year 2013 Semiannual Report No. 1
TABLE OF CONTENTS

ABOUT THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE . . . ................... 2

AND THE OFFICE OF INSPECTOR GENERAL.................................................................................. 2

MESSAGE FROM THE INSPECTOR GENERAL ................................................................................ 3

AUDITS AND REVIEWS ......................................................................................................................... 4

Overview ............................................................................................................................................................... 5

Audit Resolutions .................................................................................................................................................. 9

Other Audit Activities .......................................................................................................................................... 10


INVESTIGATIONS ................................................................................................................................. 11

Investigative Results ............................................................................................................................................ 12

Significant Cases and Activity............................................................................................................................... 12


INVESTIGATIVE CASE STATISTICS................................................................................................. 15

SUSPENSION AND DEBARMENT ..................................................................................................... 16

Recent Activity..................................................................................................................................................... 17


REVIEW OF LEGISLATION AND REGULATIONS ......................................................................... 18

Corporation Seeks Legislative Relief Regarding Criminal Background Checks ...................................................... 19

Whistleblower Protections Extended................................................................................................................... 19

OIG To Be Notified of Conference Spending......................................................................................................... 20

Corporation Policy Council ................................................................................................................................... 20


STATISTICAL AND SUMMARY TABLES ......................................................................................... 21

Audit Reports Issued ............................................................................................................................................ 22

Reports with Questioned Costs............................................................................................................................ 23

Reports with Recommendations That Funds Be Put To Better Use ...................................................................... 24

Summary of Audits with Overdue Management Decisions .................................................................................. 25
                                                                                                                                                                       1
About the Corporation for National and Community Service . . .
The Corporation for National and Community Service (Corporation) provides grants and
technical assistance to volunteer organizations throughout the United States to strengthen
communities, foster civic engagement, and improve the lives of all Americans serving their local
communities and the Nation. For Fiscal Year (FY) 2013, the Corporation will invest
approximately $760 million, before sequestration, in these service organizations: AmeriCorps,
Volunteers in Service to America (VISTA), the National Civilian Community Corps, and Senior
Corps. The Corporation also distributed a substantial portion of funding through public service
commissions in each U.S. state and territory.




and the Office of Inspector General
In 1993, Congress established both the Corporation and the Office of Inspector General (OIG or
the Office). The Office was created to promote economy, efficiency and effectiveness in
administering the Corporation’s programs. The Office also prevents and detects waste, fraud,
and abuse within the Corporation or from the entities that receive and distribute Corporation
grant funds. OIG is an independent organization, led by a Presidential appointee, which
operates separately of the Corporation and submits its reports and recommendations to the
Corporation’s Chief Executive Officer and to the Congress.

Pursuant to the Inspector General Act of 1978, as amended, this semiannual report summarizes
OIG’s work for the first six months of FY 2013. It is being transmitted to the Corporation’s Chief
Executive Officer, Board of Directors, and Members of Congress.




                                                                                                2
                                                                          Deborah J. Jeffrey
                                                                          Inspector General




Message from the Inspector General
This Semiannual Report to Congress highlights the accomplishments of the Corporation for
National and Community Service (Corporation), Office of Inspector General (OIG) for the six
months ending March 31, 2013. The audits, investigations and related work summarized here
reflect our continuing commitment to strengthening the Corporation’s stewardship of the
taxpayers’ investment in national service. Efficiency, integrity and results have always been
important, but never more so than in the current fiscal environment.

With programs in all 50 States, US territories and tribes, the Corporation faces an enormous
challenge in attaining the level of accountability necessary to safeguard the public’s funds and
ensure that grantees spend that money appropriately. The rapid expansion of national service
through partnerships with other federal agencies will only increase this challenge.

To achieve sound financial management, the Corporation must commit substantial resources to
a long-deferred campaign to assess and improve management of the grants that account for
75% of its $1 billion appropriation. Among the necessary improvements are more sophisticated
risk analysis before awarding a grant, including appraisal of a prospective grantee’s financial
management capabilities, and more refined risk-based monitoring, especially early in the grant’s
lifecycle, to allow intervention before mismanagement results in losses. At the same time, the
Corporation must reassess many of its own long-standing business practices. The audits and
investigations summarized in this Report illustrate the need to adopt a more thoughtful and
rigorous accountability program aligned with the Corporation’s priorities. To jumpstart that
process, OIG has reached out to the Office of Management and Budget, which has agreed to
assist the Corporation.

Change of this magnitude can succeed only with the active engagement of the Corporation’s
leaders. I value the commitment of CEO Wendy Spencer and the Corporation’s Board of
Directors to make accountability a top priority. The Corporation has resolved to undertake an
ambitious program to improve internal controls and has begun the early stages of
implementation. My staff and I will continue to monitor their progress, and we look forward to
working with the Corporation’s leadership, and with the Congress, to meet the challenges before
us.




                   1201 New York Avenue, NW     Suite 830  Washington, DC 20525
                      202-606-3990   Hotline: 800-452-8210  www.cncsoig.gov


                                                                                               3
Audits and Reviews
The Office of Inspector General Audit Section reviews the financial, administrative, and
programmatic operations of the Corporation for National and Community Service. The Audit
Section’s responsibilities include supervising the audit of the Corporation’s annual financial
statements, assessing the Corporation’s management controls, reviewing the Corporation’s
operations, and auditing individual grants, contracts, and cooperative agreements funded by the
Corporation. All OIG audit reports and reviews are issued to Corporation management for its
action or information.




                                                                                             4
Overview
Three reports and evaluative reviews, listed on page 22, were issued during the past six
months. At the end of the reporting period, an evaluation of the Corporation’s internal controls
to prevent and detect prohibited activities in AmeriCorps and Senior Corps programs and an
audit of consultant services were in process. Also underway were three grantee audits, as well
as the legally required audits of the Corporation’s financial statements and the National Service
Trust.

Below are highlights of particular evaluations and audits.


Audit of the Corporation for National and Community Service’s Fiscal Year 2012
Financial Statements and National Service Trust Schedules Identifies Material Weakness
in Internal Controls and Highlights Other Concerns


This statutory audit of the Corporation’s FY 2012 Financial Statements and National Service
Trust Schedules resulted in unqualified (“clean”) opinions, indicating that the financial
statements and National Service Trust schedules were fairly presented in all material respects,
in conformity with generally accepted accounting principles, and that there were no instances of
noncompliance with laws and regulations.

However, for the second year in a row, the auditors identified a material weakness in the
internal controls related to estimation of grant accruals. 1 The Corporation understated its FY
2012 third quarter advance and grants payable general ledger accounts by $39.7 million each.
The auditors discovered the error, which occurred because the Corporation allocated the grant
accruals between these accounts based on an internal database that contained incorrect
information. Because the mistake was not detected by the Corporation’s internal controls,
erroneous interim financial statements were submitted to OMB. In FY 2011, the auditors
discovered an error of $178 million in grant accruals, as a result of an undetected mathematical
error in grant accrual calculations prepared for the Corporation by the Department of Health and
Human Services.

In addition to the problem with grant accruals, the auditors again reported to the Corporation’s
management their concerns regarding the Corporation’s accountability structure and processes.
Their reservations were not limited to specific gaps, but extended more broadly to the
inadequacy of the Corporation’s process and practices for assessing risk, documenting and
evaluating internal controls and timely resolving any weaknesses. Both the financial statement
auditors and OIG expressed similar concerns in prior years.


OIG Urges Sustained Initiative To Improve Controls Over Grants Management

The observations of the financial statement auditors confirmed the independent conclusion of
OIG that the Corporation’s internal controls require sustained attention. Failure to identify key

1
 According to the Federal Accounting Standards Advisory Board, Federal Financial Accounting Technical Release
12, Accrual Estimates for Grant Programs, agencies must recognize and report balances due to or advanced to
grantees at the end of the reporting period. “Grant accrual” refers to adjustments needed to provide for eligible
expenses that grantees have incurred as of the reporting date but have not yet reported to the agencies.

                                                                                                                5
risks, assess the mechanisms intended to mitigate those risks and correct flaws leaves the
Corporation vulnerable to waste, fraud and mismanagement. To protect the Corporation and
the taxpayers, the Inspector General urged the Board of Directors and the CEO to promptly
undertake a thorough reform of the Corporation’s controls over the management of grants,
which account for three-quarters of the Corporation’s budget. The creation in FY 2012 of a new
Office of Accountability and Oversight to coordinate agency risk management and implement an
internal control assessment and improvement program represents a step in the right direction.
Given the importance, magnitude and urgency of this mission that Office must be properly
staffed with highly trained and experienced personnel, and additional resources must be made
available. To that end, the OIG has engaged the active assistance of OMB internal control
experts to work with the Corporation on this long-term project. The Corporation’s senior
leadership has embraced this approach and has begun the early stages of implementation. We
will be evaluating the results of their efforts and look forward to improvements in accountability.


Problems Persist in Corporation’s Compliance with Improper Payments Elimination and
Recovery Act (IPERA)

In its Agency Financial Report (AFR) for FY 2012, the Corporation’s management stated that
none of its programs and activities was susceptible to significant improper payments. Pursuant
to the President’s July 2010 mandate, we evaluated whether the Corporation properly assessed
the risk of improper payments in its programs and operations.

For the second year in a row, the OIG concluded that the Corporation has understated its
improper payments and has not accurately assessed the susceptibility of at least some of its
programs. The Corporation’s IPERA assessment disregarded the most important opportunity
for improper payments in an organization that distributes three-quarters of its budget in the form
of grants: how grantees actually spend the funds. The consulting firm that performed the
assessment never reviewed disbursements from those grants, the eligibility of members for
stipends and education awards, or the allowability of costs charged against the grants, despite a
long history of OIG audits showing that these areas give rise to millions of dollars of improper
payments.

Indeed, a mere six OIG audits of AmeriCorps State and National grantees—a small fraction of
the grant portfolio—in FY 2012 uncovered questioned costs of approximately $3.6 million.
While the audited grants were by no means a representative sample, experience suggests that
similar problems exist elsewhere among the Corporation’s 2,100 grants, making improper
payments more prevalent than the Corporation recognizes. Both the Corporation’s risk
assessment and its estimate ignored these and other specific findings from OIG audit reports
and investigations. Without acknowledging known risks and a reliable estimate of improper
payments, the Corporation cannot strengthen its internal controls to prevent their recurrence.

In response, the Corporation committed to a more rigorous assessment of improper payments.
The Corporation also acknowledged preliminarily that the AmeriCorps State and National
Program may be susceptible to a significant level of improper payments and promised to
conduct a comprehensive, statistically-projectable review. OIG looks forward to a more
sophisticated assessment by the Corporation.

One important opportunity to reduce improper payments lies in appropriate utilization of the U.S.
Department of Treasury’s Do Not Pay solution to verify the eligibility of potential recipients of
Federal funds. Developed at the direction of the President, the Do Not Pay Business Center
aggregates multiple databases to identify ineligible recipients before an erroneous payment
                                                                                                 6
takes place. The Corporation has not yet taken advantage of this valuable resource. We have
introduced the Corporation’s Office of Accountability and Oversight to representatives of the Do
Not Pay solution, to explore how the Corporation might use it to full advantage. We are
optimistic that enhanced eligibility screening will reduce fraud and waste.


Management Alert – Audit of the Senior Corps Grants Awarded to Atlantic Human
Resources, Inc.

In a November 2012 management alert, OIG advised the Corporation’s Senior Corps leadership
about preliminary audit findings suggesting serious risks to the integrity of grant funds awarded
to Atlantic City-based Atlantic Human Resources, Inc. (AHR). Representatives from the
Corporation’s Field Financial Management Center, the New Jersey State Program Office and
the Office of Accountability and Oversight participated in this briefing.

The audit developed significant adverse findings in connection with grants under the Foster
Grandparents Program and the Retired and Senior Volunteer Program (RSVP) for program
years 2008-2009, 2009-2010, and 2010-2011. The preliminary findings included: double-
charging of travel and other expenses; inconsistencies between AHR’s internal records and its
periodic financial reports to the Federal government; charges for volunteer meals that were not
provided; failure to ensure income-eligibility for means-tested benefits; misapplication of indirect
cost rates; and complete lack of basic documentation for the RSVP grant, including the names
of volunteers and records of their activities. OIG also noted that a prior A-133 audit had
previously determined that AHR had misdirected grant funds from another Federal agency.

The Corporation acted promptly on these findings by conditioning further disbursements to AHR
on advance submission of expense documentation, pending completion of the audit. Based on
subsequent events and follow-up by our investigators revealing misuse of Corporation grant
funds intended to benefit impoverished senior citizens, the Corporation suspended the grants.
AHR’s executive director has resigned. We expect to issue a final audit report on AHR early in
the next reporting period.


More Than One Third of Single Audit Reports Contain Significant Findings that Require
Corporation’s Immediate Follow-up and Corrective Actions

To safeguard the integrity of Federal funds, Federal law requires an annual financial and
compliance audit of any entity that receives Federal funds of more than $500,000 per year.
These audits (known as “Single Audits,” because they are required by the Single Audit Act or as
“A-133 audits” after the OMB Circular that prescribes the rules for them) are conducted by
public accounting firms or state auditors and paid for with Federal award funds. While the OIG
has in the past criticized the Corporation for failing to make use of this important tool, we are
encouraged to see that the Corporation has integrated it into the award of AmeriCorps grants
and is following up on A-133 findings in audit resolution.

As a means of ensuring timely review, every quarter, OIG furnishes the Corporation with a list of
recently issued A-133 reports pertaining to grantees subject to the Corporation’s oversight 2,

2
 Per OMB Circular A-133, Audit of States, Local Government, and Non-Profit Organizations, §___.105,
Definitions, an oversight agency refers to the Federal awarding agency that provides the predominant amount of
direct funding to a recipient not assigned a cognizant agency for audit.

                                                                                                                 7
identifying those that contain findings of material weaknesses, significant deficiencies or other
findings of comparable gravity. More than one-third (63 out of 182) of the A-133 audit reports
identified during this reporting period disclosed at least one material weakness, significant
deficiency or other adverse audit finding that warranted corrective action by the Corporation.
OMB Circular A-50, Audit Followup, requires that agencies make a high priority of resolving
audit recommendations and taking corrective action; this includes ensuring that the resolution
actions are consistent with law, regulation and administration policy, as well as providing written
justification of decisions disagreeing with audit recommendations. The Corporation is also
required to address questioned costs and collect amounts due to the Corporation. OIG will
continue to identify Corporation grantees with significant adverse audit findings and monitor the
Corporation’s progress in following up and implementing corrective actions with these high risk
grantees.


Single Audit of Washington State Discloses Significant Deficiencies

The OIG alerted the Corporation to a recent A-133 audit of the State of Washington that
identified significant deficiencies in sub-grantee monitoring by the State Commission and
questioned costs of $600,000 in AmeriCorps programs. This amount would increase
substantially if the associated education awards were included. The auditors discovered that
sub-recipients did not check the criminal histories or sex offender registration status of
prospective members before allowing them to interact with the public, including children and the
elderly. These background checks are an important public safety measure and required by
statute. In some cases, the checks did not take place until after members completed their terms
of service. We recommended that the Corporation address the questioned costs in its audit
resolution process and are awaiting the Corporation’s response to the findings.


Embezzlement Discovered at the Michigan Community Service Commission

Fieldwork of an OIG agreed-upon procedures engagement at the Michigan Community Service
Commission exposed embezzlement by an employee, who fraudulently charged $4,415 of
personal purchases to Corporation grant funds via the Commission’s procurement system. The
fraudulent purchases were uncovered during the course of routine audit testing of expenses
charged against the grant. The Michigan Commission was unaware of the scheme.

Prosecuted by the State of Michigan Office of Attorney General, the former employee pled guilty
to embezzlement and was sentenced to serve 120 days’ confinement, followed by 24 months’
probation. She was also required to pay full restitution. Based upon the conviction, the OIG
Investigations Section recommended that the Corporation debar the former employee.


External Quality Control Review of Audit Section (Peer Review)

A peer review conducted by the audit staff of the Smithsonian Institution OIG concluded that our
Audit Section met or exceeded applicable professional standards for Federal audit
organizations. The peer review report, issued on February 27, 2013, stated “the system of
quality control for the CNCS OIG in effect for the year ended September 30, 2012, has been
suitably designed and complied with to provide the CNCS OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards in all material
respects.”


                                                                                                 8
We are pleased with the positive outcome of the peer review, which is crucial to maintaining
credibility with our stakeholders. The peer reviewers’ endorsement confirmed the high quality of
our Audit Section’s contribution to rigorous oversight, ensuring the Corporation’s accountability
to the American public.


Audit Resolutions
Resolution of Longstanding Disagreements between OIG and Management

Auditors’ Management Letters

Since FY 2007, the OIG has consistently recommended that the Corporation obtain any
management letters associated with A-133 single audit reports. Auditors issue management
letters to identify internal control weaknesses that are not significant enough to include in their
audit report, but which could pose risks if not timely addressed. In some instances, an auditor
may be persuaded not to include a finding in an audit report, but instead to present it in a
management letter. As a result, these letters can provide useful information about the gaps in a
grantee’s internal controls. Given the challenges inherent in grant oversight, the OIG
recommended obtaining these letters as a “best practice,” to inform grant officers in their
monitoring.

Until recently, the Corporation consistently rejected this recommendation, noting that the
Circulars do not require it to obtain management letters. We are pleased to report that the
Corporation’s new management has revised this position and will begin to require grants
management specialists to request the management letters when certain risk-based criteria are
met and will strongly encourage them to do so under other specified circumstances. This
welcome change will enable the Corporation to leverage the work of outside auditors in its
grantee monitoring. We continue to believe that risk-based monitoring counsels strongly in
favor of obtaining management letters in circumstances in addition those made mandatory
under the Corporation’s new policy. The Corporation has indicated that it will review the policy
in the future based on experience and is open to broadening the criteria.

The Corporation issued Management Decisions concerning this subject in the following reports:

•      Report No. 12-09, Evaluation of the Corporation’s OMB Circular A-133 Reports
Monitoring Process

•      Report No. 11-20, Agreed-Upon Procedures for Corporation Grants Awarded to the
Colorado Governor’s Commission on Community Service

Background Checks

Congress mandated that Corporation programs require criminal history and sex offender
registration checks for volunteers and staff. OIG audits consistently took the position that a
check of the National Sex Offender Public Registry (NSOPR) was not complete unless the
grantee obtained results from all US jurisdictions. This might require multiple inquiries to the
NSOPR, because the information from a particular state is sometimes unavailable for a short
interval. A complete response is important because, as a recent national study funded by the
Department of Justice confirmed, a significant percentage of registered sex offenders use
tactics to evade scrutiny, including relocating to another jurisdiction. For this reason, OIG urged
that a search was not sufficient if some jurisdictions were not included. The Corporation took the

                                                                                                 9
position that a single check of the NSOPR was ordinarily sufficient, even if some jurisdictions
were omitted.

In late 2012, the Corporation reversed its position and notified grantees that they must repeat
NSOPR checks if necessary to obtain complete nationwide coverage. The OIG applauds this
decision, which will better protect vulnerable populations, national service participants and the
public at large.


Other Audit Activities

Through active engagement in the IG audit community, our audit staff provides leadership and
influences important Federal audit initiatives. Our staff continues to make positive contributions
to improve financial management at the national level.

The Assistant Inspector General for Audit, who serves as the Corporation’s Single Audit
Coordinator, worked with the Corporation and OMB representatives to review and update the
Single Audit Compliance Supplement for the Corporation’s AmeriCorps and Senior Corps
programs. The annual update to the Compliance Supplement is critical to the audit community;
it provides key nationwide guidance to all auditors who perform A-133 audits of Corporation-
sponsored programs.

As member of the Grant Reform Task Force Workgroup (Grant Reform Workgroup), the
Assistant Inspector General for Audit worked closely with others in the IG community to respond
to a pending OMB proposal to make substantial revisions to grant policies, cost principles, and
Single Audit requirements. The proposed revisions would greatly affect the Corporation’s grants
management.

One of our Audit Managers took an active role in monthly meetings of the Financial Statement
Audit Network (FSAN) to discuss emerging issues and updates on financial reporting. The
Audit Manager joined a five-member workgroup to provide technical auditing updates to OMB
on its Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, which provides
critical guidance for all auditors of Federal financial statements.




                                                                                               10
Investigations
The Investigations Section is responsible for the detection and investigation of fraud, waste, and
abuse in the Corporation’s programs and operations. The Section probes allegations of
serious—sometimes criminal—misconduct involving the Corporation’s employees, contractors
and grant recipients that threatens the integrity of the Corporation’s service initiatives. Evidence
of serious criminal or fraudulent conduct is referred to the appropriate United States Attorney or,
in some instances, to a local district attorney for criminal or civil prosecution and monetary
recovery. Other investigative results are referred to Corporation management for information or
administrative action.




                                                                                                 11
Investigative Results
During this reporting period, the OIG Investigations Section opened 26 new cases, closed 13,
including eight actions with significant findings, recovered more than $223,000 and identified
more than $700,000 in cost avoidance savings. Our investigative efforts uncovered more than
$4 million of fraud against the Corporation, and investigators continue to assist the Department
of Justice in pursuing a prosecution and/or civil recovery. Our investigations led to the
successful prosecution of an individual who embezzled Federal program funds and thirteen
administrative actions — debt letters, debarments, employment termination and
termination/relinquishment of grants — by agency management.

The first half of Fiscal Year 2013 saw an increase in reported incidents of fraud, waste and
abuse. The Investigations Section has already handled 74 hotline contacts in the first six
months, as compared to 94 contacts in the entire previous year. Although many hotline
inquiries can be resolved quickly, the increase has led to a pronounced upswing in
investigations. The Section has initiated 26 investigations in the first half of FY 2013, as
compared to a total of 22 investigations for all of FY 2012.

In the face of this increasing demand, decreasing resources have hobbled our ability to pursue
wrongdoers. Prior to sequestration, a 49% budget cut in FY 2012 forced the Investigations
Section to lay off all but three of its nine criminal investigators. Consequently, OIG has been
compelled to forgo or defer criminal investigations and to rely on Corporation management,
State Commission personnel and grantees to take the laboring oar in many inquiries and
investigations into reported incidents of fraud, waste and abuse.



Significant Cases and Activity
A Houston, Texas AmeriCorps grantee, Youth Advocates, Inc., misused Federal funds by
drawing down 98 percent of its grant shortly before the grant’s expiration, even though the
grantee met only 25 percent of its enrollment target. Executive Director Charles Rotramel could
not produce documentation to support the organization’s use of $924,391.84 in AmeriCorps
funds expended during a three-year period. Because the organization had fallen so far short of
its planned enrollment, it is clear that the funds were diverted to expenditures unrelated to the
grant. No civil enforcement took place, because the grantee and the executive director lacked
sufficient assets to satisfy a judgment. In 2011, the Corporation and the Texas State
Commission issued demands for payment of the misused federal funds. In March 2013, the
Corporation debarred Mr. Rotramel for a period of three years.

A grantee in Arkansas improperly enrolled its employees as AmeriCorps members as a means
of defraying the costs of their compensation and enabling them to receive education awards.
Between 2010 and 2012, the AmeriCorps program director made material false statements,
causing the improper award of $417,167 in Federal grant funds to the program and the award of
$103,450 in education benefits to ineligible members. The program director purposefully
deceived the Arkansas Commission when she failed to disclose that she instructed program
sub-sites to enroll paid employees in AmeriCorps positions. Had it known that the purported
AmeriCorps members were existing employees of the grantee, the Commission would not have
funded the program. Further, enrolling existing employees as AmeriCorps members provided
no added value to the community and the nature of their work did not change. The Corporation
concluded that the costs associated with the education awards were unallowable and made
demand upon the grantee for $103,450, representing the value of the education awards. In
                                                                                              12
addition, the Corporation terminated the grant, yielding cost avoidance savings of $103,450
representing the next year awards. The investigation also found that the Executive Director of
the Arkansas State Commission ignored allegations concerning the grantee’s fraud and thereby
was negligent in safeguarding Federal funds. She subsequently resigned her position.

In conjunction with the Sheriff’s Department of Lee County, South Carolina, the OIG determined
that Ms. Welithia Fortune, a Lee County school employee, embezzled $31,805.39 in Federal
program funds. Ms. Fortune submitted her personal bank account information, rather than that
of the AmeriCorps grantee Lee County Schools, thereby diverting the funds for her personal
benefit. In a prosecution conducted by State of South Carolina Office of Solicitor, Bishopville,
SC, Ms. Fortune plead guilty to grand larceny and was sentenced to six years confinement
(suspended), five years’ probation and required to make restitution in the amount of $31,805.39.

Through the hotline, the OIG received allegations concerning the misuse of Foster Grandparent
Program grant funds by a Mississippi grantee to make personal purchases during FYs 2008 –
2009. The OIG relayed the information to Corporation management for further action. The
resulting site visit identified numerous programmatic issues and disallowed $23,711.48 of
expenses charged to Federal grant funds.

The OIG referred to Corporation management an allegation that two AmeriCorps members in
New Mexico had submitted fraudulent timesheets.         An investigation by Corporation
management disclosed that the two AmeriCorps members, who were related to the Executive
Director, submitted fraudulent timesheets for a two-month period. The members were
terminated and the Executive Director resigned. Management issued a demand letter to the
program to return $14,000 in disallowed costs.

The OIG received information that an Ohio grantee failed to properly disclosure its expenditures
during its AmeriCorps grant application. The OIG investigation, with assistance from the Ohio
Commission, found the grantee had some discrepancies in its documentation, but had not
misused its program funding. Based on the findings, the grantee and the Ohio Commission,
agreed to discontinue funding the grantee and reassign its members to other AmeriCorps
programs.

The OIG determined that two Senior Corps Program volunteers in Georgia claimed service
hours for clients who were deceased. Corporation management required the grantee to
reimburse the Corporation $3,378.37 in grant funds.

An NCCC employee misused a GSA fleet fuel card for her personal use. The OIG investigation
determined that the employee improperly obtained a gasoline purchase card, and used it to
make personal purchases in the amount of $586.91. The matter was referred to Corporation
management, who terminated the employee and recouped the $586.91.

Through the hotline, the OIG was advised that an AmeriCorps member in New York submitted
fraudulent timesheets. The investigation determined that the AmeriCorps member had inflated
his service hours on his timesheets after his supervisor approved the timesheets. The member
was terminated from the program, without receiving an education award, saving the government
$5,500.

The OIG received information that a former AmeriCorps member in North Carolina submitted
fraudulent timesheets that allowed her to receive an education award. The investigation
disclosed the AmeriCorps member submitted fraudulent timesheets during her AmeriCorps
service resulting in her receiving a partial education award in the amount of $1,132.
                                                                                             13
An investigation by the State of Michigan, Department of Human Services, Office of Inspector
General, Lansing, MI, disclosed that Ms. Michelle Metzmaker, former Office Assistant, Michigan
Commission, Lansing, MI, used Commission procurement (charge) cards to make personal
purchases and pay personal expenses, amounting to a loss of $4,415.48 in Corporation
AmeriCorps program funds. Ms. Metzmaker was prosecuted by the State of Michigan Office of
Attorney General. Ms. Metzmaker pled guilty to Embezzlement and was sentenced to serve
120 days confinement, 24 month probation and required to pay full restitution in the amount of
$4,415.48 as well as court costs and fees totaling $1,198.

The California Volunteer Commission reported that it had received allegations that a California
AmeriCorps grantee had engaged in fundraising activity; received service hours for disallowed
service and/or engaged in prohibited activity when three members when to Sacramento to
conduct what appeared to be advocacy with state legislators. An investigation by the California
Volunteer Commission required the grantee to reimburse the program $45,250 in disallowed
costs.




                                                                                            14
Investigative Case Statistics
                                   Summary Of Cases
  Opened and Closed

  Cases Open at Beginning of Reporting Period                                            13

  New Cases Opened                                                                       26

  Cases Closed this Period With Significant Findings                                     7

  Cases Closed this Period With No Significant Findings                                  6

  Total Cases Closed                                                                     13

  Cases Open at End of Reporting Period                                                  26

  Referred

  Cases Referred for Prosecution                                                         5

  Cases Accepted for Prosecution                                                         1

  Cases Declined for Prosecution                                                         4

  Cases Pending Prosecutorial Review                                                     0

  Cases Pending Adjudication                                                             4*

  Recommendations to Management

  Investigative Recommendations Referred to Management                                   10


  Investigative Recommendations Pending this Reporting Period                            8


  Investigative Recommendations Pending from Previous Reporting Periods                  5


  * This includes cases referred for prosecution during the previous reporting period.




                                                                                              15
Suspension and Debarment
Suspension and Debarment are remedies intended to protect the government from doing
business with individuals or entities whose conduct has shown that they cannot be trusted to
conduct business reliably, in compliance with the law, rules and regulations and with integrity.
When the Office of Inspector General discovers serious misconduct that casts doubt on the
present responsibility of a grantee, grantee staff or other party, it recommends that the
Corporation impose debarment to prevent future harm to Federal programs and operations. If
the Corporation begins suspension or debarment proceedings, the respondent has an
opportunity to demonstrate that it should not be excluded from transactions with the
government.




                                                                                             16
Recent Activity

In the last six months, the Corporation debarred two individuals and suspended one on the
basis of audit and investigatory work by the OIG. The Corporation now has before it eight
debarment recommendations. Two of the pending matters arise from criminal convictions for
embezzlement of grant funds.

Audit and Investigation Leads to Debarment of the former Americorps Director, American
Samoa

An OIG audit and investigation discovered that Ms. Aleluia Pase, former Americorps Director of
HIS Ministries, American Samoa, improperly received and misused Federal funds for her
personal gain and benefit. Ms. Aleluia Pase is the daughter of Mine A. Pase, former Executive
Director who was convicted of stealing over $325,000 in AmeriCorps grant funds and sentenced
to 14 months in prison. Ms. Aleluia Pase was debarred from participating in all Federal
procurement and non-procurement transactions for a period of two years.

OIG Investigation Leads to Debarment of Former of Youth Advocates Inc., Houston TX

Charles Rotramel, former Executive Director, Youth Advocates Inc., Houston, TX was debarred
from participating in all Federal procurement and non-procurement transactions for a three-year
period. Mr. Rotramel was unable to account for substantial expenditures charged to the
Americorps grant and sub-grants. Living allowance checks issued to Americorps members
were not honored by financial institutions and were returned for insufficient funds. Mr. Rotramel
was found to have violated the terms of a public agreement in a manner serious enough to
affect the integrity of a Corporation program.

Audit Leads to Suspension of Operation Reach’s Chief Executive Officer

Following an audit that uncovered serious and pervasive deficiencies in the administration of
multiple grants by Operation Reach, Inc.’s (ORI), the Corporation acted with commendable
speed in suspending the organization’s Chief Executive Officer from participation in Federal
procurement and non-procurement transactions. The suspension will remain in force for up to
one year, pending the initiation and completion of debarment proceedings. The Corporation
acted on the recommendation of OIG that, given the serious mishandling of substantial Federal
funds and disregard of multiple Federal obligations, the organization’s CEO should not be
entrusted with similar responsibilities, either by the Corporation or by another agency. The audit
report is available at http://www.cncsoig.gov/news-entry/12-15. Based on the audit work, the
Corporation found adequate evidence to suspect that ORI and its CEO lacked the present
responsibility to enter into transactions with the Federal government. The suspension decision
was based on the following:

   •   ORI had a history of failure to perform, or a history of unsatisfactory performance;

   •   ORI improperly made certifications of successful completions of terms of service in
       national service participants in such a serious and compelling nature that it affected
       ORI’s present responsibility; and

   •   The CEO of ORI had either participated in, had knowledge of, or reason to know of
       ORI’s failure to perform the grant agreements, as well as ORI’s improper certifications.



                                                                                               17
Review of Legislation and Regulations
Section 4(a) of the Inspector General Act directs the Office of Inspector General to review and
make recommendations about existing and proposed legislation and regulations relating to the
Corporation’s programs and operations. The Office of Inspector General reviews legislation and
regulations to determine their impact on the economy and efficiency of the Corporation’s
administration of its programs and operations. It also reviews and makes recommendations on
the impact that legislation and regulations may have on efforts to prevent and detect fraud and
abuse in Corporation programs and operations. The Office of Inspector General draws on its
experience in audits and investigations as the basis for its recommendations.




                                                                                            18
Corporation Seeks Legislative Relief Regarding Criminal Background Checks
Consistent with Section 189D of the Serve America Act of 2009, the Corporation adopted a new
rule specifying that grantees must check the national criminal history of volunteers and grantee
staff whose service involves access to children under the age of 17, persons older than 60
years of age, or individuals with disabilities by submitting their fingerprints to the FBI. The FBI
fingerprint check is in addition to the name-based checks of the National Sex Offender Public
Website and state criminal registries required by statute for all Corporation grant program staff
and volunteers.

In its recent Congressional Budget Justification, the Corporation seeks to narrow the finger-print
requirement for ease of administration. The Corporation reports that the FBI will accept
fingerprint checks only through certain authorized state agencies, but that many of these
agencies are unwilling or unable to perform the checks for Corporation grantees. The
Corporation thus requests that its appropriation contain a provision that would eliminate FBI
fingerprint checks for volunteers and staff who work with disabled persons or those over 60.
Fingerprint checks would be limited to those persons who work with children.

The Corporation does not explain its basis to believe that state agencies would be more willing
or able to submit fingerprint requests to the FBI if those requests concerned only persons who
work with children. Moreover, the Serve America Act already provides exception from the
national fingerprint check requirement “where the entity is not authorized, or is otherwise
unable, [under State or Federal law], to access the national criminal history background check
system of the Federal Bureau of Investigation.”

A national fingerprint check is the most effective way to match an individual with any past
criminal history, and it captures the histories of those attempting to evade detection by use of
aliases, name changes or other subterfuge. Given that Congress has identified the elderly and
the disabled, along with children, as particularly vulnerable and in need of protection; we
question the need to withdraw from them safeguards that have been in effect for only a few
months. Instead, we believe that the Corporation should work with the FBI to develop an
alternate means of submitting fingerprint checks and should continue to operate grant programs
in a manner that assures the safety of those groups at high risk.



Whistleblower Protections Extended
Two recent Federal laws give the OIG an increased role in the prevention and investigations of
reprisals against individuals who report waste, fraud and abuse in Federal programs to
authorities. First, the Whistleblower Protection Enhancement Act of 2012, which requires each
agency Inspector General to appoint a Whistleblower Protection Ombudsman who is charged
with educating agency managers about the prohibitions on retaliation for protected disclosures
and providing information about how an aggrieved employee may pursue a retaliation claim.
The Inspector General designated Deputy Inspector General Kenneth Bach as the OIG’s
Whistleblower Protection Ombudsman, and all Corporation personnel were advised of his new
role. In coordination with the Corporation’s Chief Operating Officer, Mr. Bach has arranged for
the necessary training. The OIG has enhanced its website to make it easier for Corporation
employees to report retaliation claims.

Second, a provision of the Defense Authorization Act extends the authority of each agency
Inspector General to include investigating allegations of whistleblower retaliation against
                                                                                                19
Federal contractors and employees of Federal grantees. The OIG is to report its findings within
180 days to the Corporation, which has 30 days to determine appropriate remedial action. This
provision becomes effective in July 2013. The OIG advised the Corporation of these new
whistleblower protections for grantee and contractor employees, and the Corporation has
indicated it is developing appropriate language for future grants and contracts awards. In view
of the strict statutory deadlines, the Corporation’s large number of grants and subgrants and the
limited resources of the OIG, an influx of grantee whistleblower retaliation complaints could
overwhelm our resources.



OIG To Be Notified of Conference Spending
Under the continuing resolution currently funding the Federal government, each Federal agency
must report annually to its Inspector General the financial details of any conference costing the
agency more than $100,000. Throughout the year, the agency must notify its Inspector General
of the date, location, and number of employees attending any conference costing more than
$20,000.100

The OIG notified the Corporation of these new reporting rules, and the Corporation pledged that
it would timely report the required information. We note that the Corporation has invited bids
for an award of a $4.5 million cooperative agreement for a vendor to provide travel, hotel
accommodations, and conference logistics for approximately 50 training conferences for
AmeriCorps VISTA program members, as well as a separate request for bids to provide five
regional training conferences for staff of AmeriCorps and Senior Corps totaling no more than
$1.25 million.



Corporation Policy Council
The OIG continued its active participation in the Corporation’s Policy Council, which is charged
with developing and amending internal policies covering all agency operations. Based on our
audit experience and familiarity with the Corporation’s operations and internal controls, the OIG
provided comments on the following policies:

   •   Information Assurance Policies
   •   Application Deadlines and Late Submissions
   •   Grant Competition Posting Policy and Procedures
   •   Appropriated Transfers to the National Service Trust
   •   Accounting for Capitalized Property
   •   Alternative Timekeeping for Professional Corps
   •   Managing AmeriCorps VISTA Cost Share Agreements
   •   Communicating with Applicants, Potential Applicants, and Current Grantees During
       Grant Application Review Procedures
   •   Financial Disclosure




                                                                                              20
Statistical and Summary Tables
The statistical and summary tables in this section are submitted in compliance with the
requirements enumerated in the Inspector General Act.




                                                                                    21
Audit Reports Issued
                               October 1, 2012-March 31, 2013

Report                                                 Dollars          Dollars        Funds Put To
Number                   Report Name                  Questioned      Unsupported       Better Use
                                                                     (Dollars in thousands)
13-01    Audit of the Corporation for National and              $0               $0             $0
         Community Service's Fiscal Year 2011
         Financial Statements

13-02    Audit of the Corporation for National and              $0               $0             $0
         Community Service's Fiscal Year 2011
         National Service Trust Schedules

13-04    Evaluation of the Corporation’s Compliance             $0               $0             $0
         with Improper Payments Elimination and
         Recovery Act (IPERA)



                            TOTAL                               $0               $0              $0




                                                                                                      22
Reports with Questioned Costs


                                                               Federal Costs

              Report Category                     Number Questioned             Unsupported
                                                                     (Dollars in thousands)
A.   Reports for which no management decision       10      $4,168                    $2,880
     had been made by the commencement of
     the reporting period

B.   Reports issued during the reporting period     0        $0                          $0

C.   Total Reports (A + B)                          10      $4,168                    $2,880

D.   Reports for which a management decision        3       $608                       $153
     was made during the reporting period

     I. Value of disallowed costs                           $213                        $90

     II. Value of costs not disallowed                      $395                        $63

E.   Reports for which no management decision       7       $3,560                    $2,727
     had been made at the end of the reporting
     period (C minus D)
F.   Reports with questioned costs for which no     6       $3,488                    $2,690
     management decision or proposed
     management decision was made within six
     months of issuance




                                                                                               23
Reports with Recommendations That Funds Be Put To Better Use


               Report Category                   Number*          Dollar Value*
                                                                    (Dollars in
                                                                   thousands)
A.   Reports for which no management                 10                $3,646
     decision had been made by the
     commencement of the reporting period
B.   Reports issued during the reporting              0                  $0
     period
C.   Total Reports (A + B)                           10                $3,646

D.   Reports for which a management                   3                 $168
     decision was made during the reporting
     period
     i. Value of recommendations agreed to                               $74
     by management

     ii. Value of recommendations not agreed                             $94
     to by management

E.   Reports for which no management                  7                $3,478
     decision had been made by the end of
     the reporting period

F.   Reports for which no management                  6                 $427
     decision was made within six months of
     issuance



*The Audit Section predominately performed cost-incurred and compliance audits that resulted in
questioned costs and noncompliance findings. These types of audits typically do not lead to
recommendations that funds be put to better use.




                                                                                                  24
Summary of Audits with Overdue Management Decisions

                                                                          Mgmt.
Report                                           Federal Dollars         Decision        Status at End of Reporting
Number                  Title                     Questioned               Due                Period (03/31/12)
                                                (Dollars in thousands)

         Audit of Earned Education Awards
                                                                                      The Corporation has not issued a Draft
 12-04   Resulting from Compelling Personal              $0               5/9/2012
                                                                                      Management Decision for this report.
         Circumstances

         Evaluation of the the Corporation's
         Compliance with Improper Payments                                            The Corporation has not issued a Draft
 12-10                                                   $0               9/7/2012
         Elimination and Recovery Act                                                 Management Decision for this report.
         (IPERA)


         Audit of Trust Payments to Education                                         The Corporation has not issued a Draft
 12-08                                                   $0              10/3/2012
         & Financial Institutions                                                     Management Decision for this report.


                                                                                      The Corporation issued a Draft
         Evaluation of the Corporation’s OMB
                                                                                      Management Decision December 5,
 12-09   Circular A-133 Report Monitoring                $0              11/13/2012
                                                                                      2012. The OIG non-concurred on March
         Process
                                                                                      26, 2013.

         Agreed-Upon Procedures for
         Corporation for National and                                                 The Corporation issued the Draft
 12-11                                                 $2,826            11/12/2012
         Community Service Grants Awarded                                             Management Decision on March 1, 2013.
         to The New Teachers Project
         Agreed-Upon Procedures for
                                                                                   The Corporation issued its Draft
         Corporation for National and
 12-12                                                $395,429           1/21/2013 Management Decision on March 14,
         Community Service Grants Awarded
                                                                                   2012.
         to AIDS United
         Agreed-Upon Procedures for
         Corporation for National and                                                 The Corporation has not issued a Draft
 12-13                                                $391,604           2/15/2013
         Community Service Grants Awarded                                             Management Decision for this report.
         to the Oregon Commission
         Agreed-Upon Procedures for
         Corporation for National and                                                 The Corporation has not issued a Draft
 12-14                                                $243,536           2/27/2013
         Community Service Grants Awarded                                             Management Decision for this report.
         to the Michigan Commission
         Agreed-Upon Procedures for
         Corporation for National and                                                 The Corporation has not issued a Draft
 12-15                                                $559,659           2/28/2013
         Community Service Grants Awarded                                             Management Decision for this report.
         to the Operations Reach, Inc.
         Agreed-Upon Procedures for
         Corporation for National and                                                 The Corporation has not issued a Draft
 12-16                                                1,895,026          3/27/2013
         Community Service Grants Awarded                                             Management Decision for this report.
         to the New Jersey Commission

                        Total                        $3,488,080




                                                                                                                           25
